App.la
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE FOURTH CIRCUIT
(MAY 19, 2020)
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
ROBEL BING,
Plain tiff-Appellan t,
v.
BRIVO SYSTEMS, LLC,
Defendan t-Appellee.
No. 19-1220
Appeal from the United States District Court
for the District of Maryland, at Greenbelt.
Paula Xinis, District Judge. (8:18-cv-01543-PX)
Before: AGEE and QUATTLEBAUM, Circuit Judges,
and TRAXLER, Senior Circuit Judge.
TRAXLER, Senior Circuit Judge, writing for the
Court in Parts I and II:
Robel Bing, an African-American male, was hired
by Brivo Systems, LLC, but fired shortly after starting
orientation on his first day of employment. Bing
subsequently filed a pro se action asserting that he
had been discriminated against because of his race in
violation of Title VII, 42 U.S.C. §§ 2000e to 2000e-17.

App.2a

The district court dismissed the case without prejudice,
concluding that Bing failed to plead sufficient facts to
plausibly support a claim of discrimination. Bing
appeals. 1
As we will explain, we have appellate jurisdiction
despite the district court’s dismissal of the complaint
without prejudice. On the merits of the appeal, a
majority of the panel concludes that the district court
did not err by dismissing the Title VII claims at this
point in the proceedings, and the district court’s
decision is therefore affirmed.
I.
Because this is an appeal from the granting of a
Rule 12(b)(6) motion to dismiss,2 we accept as true the
facts alleged in Bing’s pro se complaint and construe
the facts in the light most favorable to Bing. See,

1 Bing’s pro se complaint also asserted claims under the Fair
Credit Reporting Act, 15 U.S.C. §§ 1681 to 1681x. He does not
pursue those claims on appeal.
2 Although Brivo’s motion to dismiss and Bing’s response to the
motion included factual materials outside the complaint, the
district court did not consider that material when granting the
motion to dismiss. Accordingly, the court was not required to
convert the motion to dismiss to a motion for summary judgment.
See Fed. R. Civ. P. 12(d) (“If, on a motion under Rule 12(b)(6) or
12(c), matters outside the pleadings are presented to and not
excluded by the court, the motion must be treated as one for
summary judgment under Rule 56.”); E.I. du Pont de Nemours
& Co. v. Kolon Indus., Inc., 637 F.3d 435, 448 (4th Cir. 2011)
(explaining that if district court considering a Rule 12(b)(6)
motion goes beyond the complaint and documents attached or
incorporated into the complaint, the court must convert the
motion into one for summary judgment).

App.3a

e.g., In re Willis Towers Watson pic Proxy Litigation,
937 F.3d 297, 302 (4th Cir. 2019).
Bing applied for employment as a “customer care
representative” with Brivo. He disclosed his prior
criminal history as part of the application process.
Bing was interviewed in person by two Brivo employees
on September 27, 2016 and was extended a job offer
on September 28. Bing did not disclose his race on
his application, but the Brivo employees who hired
him learned of his race during his interview.
The job offer was subject to Bing passing a back­
ground check. Bing passed the background check, and
his first day of employment was October 17, 2016.
When Bing arrived for a new-employee orientation
on his first day, he was met by Charles Wheeler, a
white male who had not previously been involved in
Bing’s hiring. Wheeler was introduced to Bing as
Brivo’s “Security Architect.” J.A. 14. Within an hour
of starting orientation, Wheeler approached Bing
and confronted him about a Baltimore Sun article
that Wheeler had found after running a Google search
on Bing. The article reported Bing’s tangential involve­
ment in a shooting for which he faced no charges.3
Wheeler berated Bing about the incident, declared
that he was not fit for employment with Brivo,
3 The article at issue was included as an exhibit to Brivo’s
motion to dismiss. The article states that on Halloween in 2006,
Bing loaned his lawfully owned handgun to a friend, who fired
shots in the air in celebration of the holiday. One of the shots
injured a third party. Bing and the others involved did not
initially tell the truth about the shooting to the police. When
dismissing the complaint, the district court considered only the
general outlines of the article as alleged in Bing’s complaint; it
did not rely on the details of the article not alleged in the complaint .

App.4a

terminated him on the spot, and escorted Bing out of
the building.
Bing filed a charge of discrimination with the
Equal Employment Opportunity Commission and
received a Notice of Right to Sue letter. He subse­
quently filed a timely complaint in federal district court
alleging unlawful termination and “harassment/
discrimination” under Title VII. J.A. 9.
In his complaint, Bing alleged that Wheeler
performed a Google search on him after Bing had
completed his background check and received an offer
of employment. According to Bing, the search “serve [d]
as [a] means for discrimination of protected groups,
by allowing personal and perhaps implicit biases to
explicitly permeate the work environment.” J.A. 16.
Bing stated that he could “find nothing other than [his]
(possibly unexpected) physical appearance as an
African-American male, to explain actions of race
(African-American) and sex (male) discrimination, init­
iated by Mr. Wheeler, whose actions clearly fell out­
side of established Brivo hiring processes.” J.A. 16.
Bing’s complaint “question[s] whether or not Brivo
can provide historical documentation to replicate my
hiring experience, or at the very least, demonstrate
that they have a common hiring practice of con­
ducting ancillary ‘Google searches’ of employees’ names
on the first day of employment with the company.”
J.A. 16.
The district court granted Brivo’s motion to dismiss
for failure to state a claim. See Fed. R. Civ. P. 12(b)(6).
The court concluded that Bing “proffered no facts
allowing a plausible inference that his discharge was
fueled by unlawful discrimination.” J.A. 176. In the

App.5a

court’s view, the facts asserted by Bing showed the
absence of any discrimination:
[T]he Complaint avers facts establishing that
he was terminated because of his involve­
ment in the shooting incident — the veracity
of which Bing confirmed. By contrast, no
evidence exists by which this Court could infer
Bing was terminated on account of race or
gender. Brivo concluded that Bing’s involve­
ment in the firearm incident rendered him
unfit for the position. Nothing about this
determination, based on the facts averred in
the Complaint, demonstrates that this reason
was put forward to obscure Brivo’s dis­
criminatory animus.
J.A. 176.
In its memorandum opinion, the district court
stated that the complaint was dismissed without
prejudice. By separate document denominated as an
order, the court officially granted the motion to dismiss,
stated that Bing’s complaint was dismissed, and
directed the Clerk’s Office to close the case. The
order did not qualify the dismissal; it dismissed the
complaint without specifying whether the dismissal
was with or without prejudice.
II.
Before reviewing the merits of Bing’s appeal, we
must establish that we have appellate jurisdiction.
Subject to certain exceptions not present here, this
court has jurisdiction only over appeals from final
orders. See 28 U.S.C. § 1291 (“The courts of appeals
(other than the United States Court of Appeals for

App.6a

the Federal Circuit) shall have jurisdiction of appeals
from all final decisions of the district courts.
Although the district court dismissed Bing’s
complaint, it did so “without prejudice.” This disposition
raises questions about the finality of the dismissal
order, as “[djismissals without prejudice naturally
leave open the possibility of further litigation in some
form.” Go Computer, Inc. v. Microsoft Corp., 508 F.3d
170, 176 (4th Cir. 2007). As we have explained, what
makes an order of dismissal without prejudice “final
or nonfinal is not the speculative possibility of a new
lawsuit, but that they end the litigation on the merits
and leave nothing for the court to do but execute the
judgment.” Id. (internal quotation marks omitted).
In Domino Sugar, we adopted the rule that
dismissals without prejudice generally are not appealable “unless the grounds for dismissal clearly indicate
that no amendment in the complaint could cure the
defects in the plaintiffs case.” Domino Sugar Corp. v.
Sugar Workers Local Union 392, 10 F.3d 1064, 1067
(4th Cir. 1993) (internal quotation marks and altera­
tion omitted). The Domino Sugar rule “requires us to
examine the appealability of a dismissal without pre­
judice based on the specific facts of the case in order
to guard against piecemeal litigation and repetitive
appeals.” Chao v. Rivendell Woods, Inc., 415 F.3d 342,
345 (4th Cir. 2005).
When determining the finality of a dismissal
without prejudice, we have considered various factors,
including the bottom-line effect of the district court’s
ruling, see Domino Sugar, 10 F.3d at 1067 (“The clear
import of this order required the Company to pursue
remedies within the CBA before filing suit in court.
In other words, the district court essentially made a

App.7a

final ruling that the Company had to proceed to arbi­
tration before seeking judicial relief.”); and whether
the court dismissed the complaint only, as opposed to
dismissing the action entirely, see Chao, 415 F.3d at
345 (explaining that the dismissal of an amendable
complaint generally is not appealable while dismissal
without prejudice of the entire action generally is
appealable). We have also held that when the plaintiff
elects to stand on the complaint, a dismissal without
prejudice is final, as the plaintiffs election amounts
to waiver of any right to amend and “protect[s]
against the possibility of repetitive appeals that con­
cerned us in Domino Sugar.” Chao, 415 F.3d at 345;
see also In re GNC Corp., 789 F.3d 505, 511 n.3 (4th
Cir. 2015) (concluding that order dismissing complaint
without prejudice and expressly authorizing an
amended complaint was a final, appealable order
because the plaintiffs declined to amend the complaint:
“Because of Plaintiffs’ waiver [of the right to amend],
we treat this case as if it had been dismissed with
prejudice and therefore have jurisdiction over this
appeal.”); United States ex rel. Badr v. Triple Canopy,
Inc., 775 F.3d 628, 633 n.2 (4th Cir. 2015) (exercising
jurisdiction over appeal from dismissal without pre­
judice because the government and qui tam relator
“elected to stand on their complaints and waived the
right to later amend” (internal quotation marks omit­
ted)), cert, granted, judgment vacated on other grounds
and remanded for further consideration, 136 S. Ct.
2504 (2016).
In our view, the rules announced in the above-cited
cases establish that the without-prejudice dismissal
at issue in this case is a final, appealable order. The
district court concluded that the factual allegations

App.8a

in the complaint were insufficient to support Bing’s
theories of legal liability, but there is nothing in the
opinion indicating that the deficiencies could be
corrected by improved pleading. The district court did
not suggest that there were other relevant facts that
were not included in the complaint, nor is there any­
thing in the record that would permit us to so conclude.
We could certainly hypothesize additional facts that
could shore up Bing’s claims of discrimination—for
example, if the employee orientation also included
white newly hired employees, but Bing was the only
new-hire subjected to the additional Google background
search. However, unless the record provides some
reason to think that there are additional relevant
facts that have not been included in the complaint,4
we should not treat a without-prejudice dismissal as
unappealable simply because we can imagine facts
that might be helpful to the plaintiff.
When the district court’s opinion is considered in
light of the entire record, it is clear that the court
held that the circumstances surrounding Bing’s hiring
and subsequent firing did not expose Brivo to legal
liability. The court’s decision therefore was a final,
legal determination that Brivo’s conduct was not
actionable, and that decision is a final, appealable
order under Domino Sugar’s “clear import” approach
to the question. See Domino Sugar, 10 F.3d at 1067.

4 Because Bing was employed for only a matter of hours, his factual
knowledge would necessarily be limited. Brivo did not assert
any additional facts in its motion to dismiss, nor does it suggest
in its briefs filed with this court that there are any other
relevant facts that Bing could have included in his complaint.

App.9a

The conclusion that the district court’s order
ended the case is further evidenced by the fact that
the district court did not merely dismiss the complaint
but instead directed the clerk of court to close the
case. See Chao, 415 F.3d at 345.5 To be sure, an
administrative closing of a case does not convert an
unambiguously not-final order into a final, appealable
order. See Penn-America Ins. Co. v. Mapp, 521 F.3d
290, 295 (4th Cir. 2008) (concluding that order resolving
one of two claims raised in a complaint was not a
final appealable order and that the court’s order
dismissing the case from the active docket did not
alter that conclusion: “[A]n otherwise non-final order .
does not become final because the district court
administratively closed the case after issuing the
order.”). Dismissals without prejudice, however, are
not unambiguously not-final orders. Indeed, the premise
of Domino Sugar and its progeny is that such orders
usually are ambiguous and require further analysis
to determine whether the district court intended its
order to end the case. Here, by issuing an order
rejecting all of the claims asserted by Bing and
directing the clerk to close the case, the district court
signaled that it was finished with the case, which is
an indication that we may treat the order of dismissal
as a final order. See Go Computer, 508 F.3d at 176
(explaining that a without-prejudice dismissal is final
if it “end[s] the litigation on the merits and leaves
nothing for the court to do but execute the judgment”
(internal quotation marks omitted)); cf. United States
v. Wallace & Tiernan Co., 336 U.S. 793, 794-95 n.l
(1949) (concluding that the challenged order, which
5 We see no meaningful difference between the dismissal of the
entire action in Chao and the closing of the case here.

App.lOa

dismissed an action without prejudice, was appealable
because the “denial of relief and dismissal of the case
ended this suit so far as the District Court was con­
cerned”)^
If there could still be any doubt about the finality
of the ruling in this case, counsel for Bing represented
to this court at oral argument that there were no
additional facts available to his client to be asserted
in the complaint, and counsel therefore stood on the
complaint as originally presented to the district
court. That is sufficient to establish the finality and
appealability of the district court’s order. See In re
GNC Corp., 789 F.3d at 511 (“Because of Plaintiffs’
waiver [of the right to amend], we treat this case as
if it had been dismissed with prejudice and therefore
have jurisdiction over this appeal.”); Chao, 415 F.3d
at 345 (explaining that the plaintiffs decision to
stand on the complaint amounts to waiver of any
right to amend and permits this court to exercise
jurisdiction over an appeal from a dismissal without
prejudice).

6 The significance of the direction to close Bing’s case is
underscored by the approach taken by the same district judge in
Alston v. Ourisman Chevrolet, another case with a pro se plaintiff
asserting discrimination claims. In Alston, the district court issued
an opinion that dismissed the plaintiffs amended complaint
without prejudice but explicitly granted the plaintiff permission
to file a second amended complaint. See 2016 WL 4945010, at
*4 (D. Md. Sept. 15, 2016). The order issued in connection with
that opinion did not include instructions to close the case. See
Docket Entry #23, 8:15-cv-03740-PX (D. Md.). The district court’s
different approaches in this case and in Alston confirm that the
court believed its involvement in this case ended with the entry
of the order closing the case.

App.lla

Brivo, however, insists that we lack jurisdiction
based on our decision in Goode v. Central Virginia
Legal Aid Society, Inc., 807 F.3d 619 (4th Cir. 2015).
In Goode, an attorney who was fired after 25 years of
employment with the Legal Aid Society filed an action
asserting claims of age-, race-, and sex-based dis­
crimination. The district court granted the employer’s
motion to dismiss for failure to state a claim and dis­
missed the case without prejudice. This court dis­
missed the employee’s appeal, concluding that the
without-prejudice dismissal was not a final order.
After acknowledging that Domino Sugar required
case-by-case determinations of the finality of withoutprejudice dismissals, the Goode court identified what
it seemed to view as a bright-line rule that withoutprejudice dismissals “for failure to plead sufficient
facts in the complaint” are not appealable orders:
[I]n cases in which the district court granted
a motion to dismiss for failure to plead
sufficient facts in the complaint, we have
consistently found, albeit in unpublished,
non-precedential decisions, that we lacked
appellate jurisdiction because the plaintiff
could amend the complaint to cure the
pleading deficiency. We think the time has
come to enshrine this salutary rule in a pre­
cedential opinion, and we do so here.
Id. (citations omitted).
After announcing this rule, the Goode court con­
cluded that all of the factual deficiencies in the
complaint identified by the district court in that case
could be corrected by the pleading of additional facts.
See id. at 626 (“Goode could have provided facts to

App.l2a

support his allegation that he had always met or ex­
ceeded [his employer’s] performance expectations”
(internal quotation marks omitted); id. at 626-27
(“Goode could have rectified the apparent defects by
presenting factual allegations to demonstrate why he
beheved that his termination had been racially motiva­
ted”); id. at 627 (“Goode could also have responded to
the district court’s observation that he had apparently
pled himself out of court by amending his complaint to
clarify that he was not conceding that [the employer’s]
alleged financial reasons for his termination were true.”
(internal quotation marks and alteration omitted)).
Because the deficiencies could be corrected by addi­
tional pleading, the court concluded that the withoutprejudice dismissal of the complaint was not a final
order. See id. at 628 (“[T]he district court did not make
clear that no amendment could have cured the grounds
for dismissal. Because Goode could have amended
his complaint, the district court’s order dismissing
the complaint without prejudice is not, and should
not be treated as, final and appealable.”).
The Goode court then went on to explain why the
plaintiffs appealability arguments were not convincing.
First, the court held that plaintiff s insistence that he
was standing on his complaint was a relevant factor
under Chao, but it was not dispositive:
Chao does not stand for the general proposi­
tion that a plaintiff may choose not to amend
a complaint in order to single-handedly render
an order of dismissal final and appealable
under all circumstances. As we explained
above, it is the province of the district court—
not of the party seeking an appeal—to indicate
that an order is final and appealable. Chao

App.l3a

also involved a unique set of facts that differ
significantly from those in the case before
us. In Chao, the Secretary of Labor appealed
the district court’s dismissal of her action
against various defendants for violations of
the Fair Labor Standards Act. Because the
Secretary contended that she must be able to
employ similarly-worded complaints through­
out the country for consistency, she elected
to stand on the complaint presented to the
district court. In doing so, the Secretary
waived the right to later amend thus pro­
tecting against the possibility of repetitive
appeals that concerned this Court in Domino
Sugar.
The Court in Chao therefore considered the
weighty assurances of the Secretary of Labor
that the objectives of Domino Sugar and
§ 1291 would best be served by the Court’s
exercise of appellate jurisdiction in that case,
particularly in light of the institutional inter­
ests of the Executive Branch. Goode, by con­
trast, cannot and does not attempt to make
these assurances, and he does not seek to
vindicate such institutional interests. Goode’s
failure to seek leave to amend the complaint
thus does not favor appealability of the dis­
trict court’s order of dismissal.
Id. at 629 (citations, internal quotation marks and
alterations omitted).
As to the plaintiffs claim that the order was
final because the district court dismissed the case
without prejudice rather than merely dismissing the

App.l4a

complaint, the Goode court found the wording insig­
nificant:
[W]e see no indication that the district court
intended for its use of the word “case”
rather than “complaint” to hold any special
meaning or for it to signify any particular
finality, especially in light of the court’s ex­
press statement that the dismissal was
“without prejudice”—a phrase that generally
indicates that a court’s decision is not final.
Given the emphasis in this Circuit’s governing
precedent on case-by-case review, we are
unconvinced that the district court’s use of
the word “case” rather than “complaint” is
determinative, or even highly probative, of
the order’s appealability.
Id.
Relying on Goode, Brivo argues that the withoutprejudice dismissal in this case is not a final, appealable
order because the court found the factual allegations
insufficient; and that the court also directed the case
be closed is irrelevant. See Goode, 807 F.3d at 624,
629. And because no institutional interests are at
stake, Brivo contends that Bing’s decision to stand
on his complaint does not establish finality. See id. at
629.
Thus, while Goode provides support for Brivo’s
view that the appealed order is not final, Domino
Sugar, Chao, and In re GNC all provide support for
Bing’s view that the order is final and appealable.
Under the rules of this Circuit, panel decisions are
binding on subsequent panels, and we are obligated
to reconcile conflicting cases if possible. In our view,

App.l5a

however, much of the language and analysis in
Goode is in direct conflict with Domino Sugar, Chao,
and In re GNC. Because those cases preceded Goode,
they control our resolution of this case. See McMellon
v. United States, 387 F.3d 329, 333 (4th Cir. 2004)
(en banc) (“When published panel opinions are in
direct conflict on a given issue, the earliest opinion
controls, unless the prior opinion has been overruled
by an intervening opinion from this court sitting en
Bancor the Supreme Court.”).
Specifically, Goodds assertion of a bright-line
rule that without-prejudice dismissals premised on
the failure to plead sufficient facts in the complaint
are not appealable is inconsistent with Domino Sugar,
which emphasized the case-by-case nature of the
inquiry, see Domino Sugar, 10 F.3d at 1066, and also
with Chao, which found that very type of dismissal to
be appealable, see Chao, 415 F.3d at 344 (district court
dismissed complaint without prejudice under Rule 12
(b)(6) after finding that complaint failed to allege facts
sufficient to support legal liability). Goode's rejection
of the significance of the dismissal of the case as
opposed to the complaint because that language was
paired with the phrase “without prejudice” is also
inconsistent with Chao, which relied on the significance
of dismissing the case in the context of a withoutprejudice dismissal. See Chao, 415 F.3d at 345 (“In
Domino Sugar, we noted the difference between an
order dismissing an action without prejudice and one
dismissing a complaint without prejudice, stating
that the latter order is generally not appealable.”).
Additionally, Goode’s refusal to give weight to the
plaintiffs decision to stand on his complaint because
there were no institutional interests of an executive-

App.l6a

branch agency at stake is inconsistent with In re
GNC, which gave dispositive effect to that decision in
a case involving only private parties. See In re GNC,
789 F.3d at 511 n.3 (“Dismissals without prejudice
are generally not appealable final orders. But if, as
here, a plaintiff declines the district court’s offer to
amend and chooses to stand on his or her complaint,
the plaintiff waives the right to later amend unless
we determine that the interests of justice require
amendment. Because of Plaintiffs’ waiver, we treat
this case as if it had been dismissed with prejudice
and therefore have jurisdiction over this appeal.”
(citations, internal quotation marks and alteration
omitted)).
Accordingly, given the conflict between Goode and
our earlier cases, we must follow the approach set
out in the earlier cases. Under Domino Sugar, the
order in this case is appealable because the district
court held that the circumstances surrounding Bing’s
termination did not expose Brivo to legal liability,
and Bing has no additional facts that could be added
to his complaint. Under Chao, the order is appealable
because the district court dismissed the complaint
and directed that the case be closed. The order is like­
wise appealable under Chao and In re GNC because
Bing has elected to stand on his complaint as filed.7
7 As this case demonstrates, it can be difficult—even with the
guidance provided by Domino Sugar and its progeny—to determine
whether a without-prejudice dismissal is final. This lack of
certainty can be especially problematic for plaintiffs, who have
a relatively short period of time to determine their next step
before the door to appellate review permanently closes. See,
e.g., Sharp Farms v. Speaks, 917 F.3d 276, 289 (4th Cir. 2019)
(explaining that the 30-day appeal period in civil cases is a
jurisdictional limit). A version of the Domino Sugar approach is

App.l7a

III.
QUATTLEBAUM, Circuit Judge, writing for the Court
in Parts III and IV:
Having determined that we have jurisdiction to
consider Bing’s appeal, we now consider the merits of
his challenge to the district court’s dismissal of his
Title VII claims. We review de novo a decision to
grant or deny a motion to dismiss. Paradise Wire &
Cable Defined Ben. Pension Plan v. Weil, 918 F.3d
312, 317 (4th Cir. 2019).

followed in other circuits, see, e.g, Amazon, Inc. v. Dirt Camp,
Inc., 273 F.3d 1271, 1275 (10th Cir. 2001) (“Although a dismissal
without prejudice is usually not a final decision, where the
dismissal finally disposes of the case so that it is not subject to
further proceedings in federal court, the dismissal is final and
appealable.”); Coniston Corp. v. Vill. of Hoffman Estates, 844
F.2d 461, 463 (7th Cir. 1988) (“The dismissal of a complaint is
not the dismissal of the lawsuit. ... If, however, it is plain that
the complaint will not be amended, perhaps because the grounds
of the dismissal make clear that no amendment could cure the
defects in the plaintiffs case, the order dismissing the complaint
is final in fact and we have jurisdiction. . . . ”). However, it is
not the universal approach. The Eleventh Circuit, for example,
follows a very straightforward path. If the plaintiff chooses to .
appeal an order dismissing the case without prejudice — even if
the dismissal expressly authorizes an amendment, the order is
final and appealable because the choice to appeal amounts to a
waiver of any right to amend. See McKusick v. City of
Melbourne, 96 F.3d 478, 482 n.2 (llth Cir. 1996); Schuurman v.
Motor Vessel Betty K V, 798 F.2d 442, 445 (llth Cir. 1986) (per
curiam). This approach avoids “uncertainty as to whether the
dismissal of a complaint constitutes a final judgment. It protects
the plaintiff by putting in his hands the decision of whether or
not to treat the dismissal of his complaint as final, and
simultaneously limits his ability to manipulate the rules.”
Schuurman, 798 F.2d at 445-46.

App.l8a

In reviewing a dismissal pursuant to Federal
Rule of Civil Procedure 12(b)(6), we focus on the
pleading requirements under the Federal Rules rather
than the proof ultimately required to succeed on the
claim. Rule 8(a)(2) requires only a short and plain
statement of the claim showing that the pleader is
entitled to relief, in order to give the defendant fair
notice of what the . . . claim is and the grounds upon
which it rests.” Bell Atl. Corp. v. Twombly, 550 U.S.
544, 555 (2007) (internal quotation marks and citation
omitted). But importantly, this rule “requires more
than labels and conclusions, and a formulaic recitation
of the elements of a cause of action’s elements will
not do.” Id. A complaint must contain “[f]actual
allegations [sufficient] to raise a right to relief above
the speculative level. ...” Id.; see also Ashcroft v.
Iqbal' 556 U.S. 662, 678 (2009) (holding that a
complaint “tender[ing] ‘naked assertion[s]’ devoid of
‘further factual enhancement’” does not suffice) (quoting
Twombly, 550 U.S. at 557).
To survive a motion to dismiss, a plaintiff must
plead enough factual allegations “to state a claim to
relief that is plausible on its face.” Iqbal, 556 U.S. at
678 (quoting Twombly, 550 U.S. at 570). The purpose
of a Rule 12(b)(6) motion is to “test the sufficiency of
a complaint,” not to “resolve contests surrounding
the facts, the merits of a claim, or the applicability of
defenses.” Id. at 214 (4th Cir. 2016) (quoting Edwards
v. City of Goldsboro, 178 F.3d 231, 243-44 (4th Cir.
1999)). Thus, when considering a motion to dismiss,
a court must consider the factual allegations in the
complaint as true and draw all reasonable inferences
in favor of the plaintiff. King v. Rubenstein, 825 F.3d
206, 212 (4th Cir. 2016).

App.l9a

In the context of a Title VII case, “an employment
discrimination plaintiff need not plead a prima facie
case of discrimination” to survive a motion to dismiss,
Swierkiewicz v. Sorema N.A., 534 U.S. 506, 515
(2002).8 Instead, a Title VII plaintiff is “required to
allege facts to satisfy the elements of a cause of action
created by that statute.” McCleary-Evans v. Maryland
Dep’t of Transp., State Highway Admin., 780 F.3d
582, 585 (4th Cir. 2015). The pertinent statute, Title
VII, prohibits an employer from “discharging] any
individual, or D otherwise discriminating] against any
individual with respect to his compensation, terms,
conditions, or privileges of employment, because of such
individual’s race.” 42 U.S.C. § 2000e-2(a)(l). Accord­
ingly, our inquiry is whether Bing alleges facts that
plausibly state a violation of Title VII “above a
speculative level.” Coleman v. Maryland Court of
Appeals, 626 F.3d 187, 190 (4th Cir. 2010) (quoting
8 Ultimately, a plaintiff bringing an employment discrimination
claim under Title VII of the Civil Rights Act of 1964 and 42
U.S.C. § 1981 must provide supporting evidence through one of
two methods: (l) “direct or circumstantial evidence” that discrim­
ination motivated the employer’s adverse employment decision,
or (2) the McDonnell Douglas “pretext framework” that requires
the plaintiff to show that the employer’s stated permissible reason
for taking an adverse employment action “is actually a pretext
for discrimination.” Hill v. Lockheed Martin Logistics Mgmt.,
Inc., 354 F.3d 277, 284-85 (4th Cir. 2004) (en banc), abrogated
in part by Gross v. FBL Fin. Servs.. Inc., 557 U.S. 167, (2009).
Bing relies on the McDonnell Douglas framework to establish his
claim. To prove a prima facie case of discrimination under the
McDonnell Douglas framework, Bing must estabhsh (l) member­
ship in a protected class, (2) discharge, (3) while otherwise fulfilling
Defendants’ legitimate expectations at the time of his discharge,
and (4) under circumstances that raise a reasonable inference of
unlawful discrimination.” Ennis v. Natl Ass’n of Bus. & Educ.
Radio, Inc., 53 F.3d 55, 58 (4th Cir. 1995).

App.20a

Twombly; 550 U.S. at 555); see also McCleary-Evans,
780 F.3d at 585-86.
With these standards in mind, we turn to Bing’s
pro se complaint. Liberally construing its allegations,
he asserted discrimination in two ways. First, Bing
claimed he was terminated because of his race. To
evaluate the sufficiency of this assertion, we look to
the facts Bing alleged. Regarding his termination,
Bing pled
I was pulled aside by Mr. Wheeler and con­
fronted with a Baltimore Sun newspaper
article, pursuant to a “Google search,” which
sensationally reported that I was the subject
of a criminal investigation involving a shoot­
ing between two individuals, involving a gun
I owned at the time, all events having taken
place in my absence. Mr. Wheeler continued
to berate me for this alleged impropriety,
citing only the newspaper article’s narrative;
and, thereafter declared I was unfit for the
position of CCR, effectively terminating my
employment with Brivo on the spot.
J.A. 14.
The facts Bing pled about his termination cannot
be construed to plausibly state a claim that he was
terminated because of his race. In fact, Bing specifically
alleged a nonracial reason for the termination. He
asserted Wheeler terminated him because of the
information from a newspaper article about the shoot­
ing incident involving Bing’s gun. According to Bing,
Wheeler said his involvement in that shooting event
disqualified him from continuing to work at Brivo. In
light of Brivo’s recent decision to hire Bing, Wheeler’s

App.21a

termination decision may have been hasty or even
unfair, but it was not racially motivated according to
Bing’s own allegations.
Second, Bing alleged the Google search that un­
covered the article about the shooting was racially
discriminatory. But once again, we must review the
complaint’s factual allegations to determine the
sufficiency of this assertion. Bing alleged that, in
conducting that search, Wheeler “went beyond all
standard and routine measures of screening.” J.A.
16. He asserted Wheeler did so because Bing was
African-American, a fact Wheeler learned for the first
time during Bing’s orientation. According to Bing,
“Wheeler . . . had no prior knowledge of my race” as
he was not involved in the interview and Bing did
not disclose his race on the application. J.A. 16.
As we must, we accept as true the factual allega­
tions that Wheeler did not know Bing was AfricanAmerican until he saw him at orientation and that
Wheeler conducted a Google search on Bing during his
first hours of employment. But from those allegations,
even if liberally construed, we cannot reasonably
infer that the search was racially motivated. Missing
from Bing’s complaint are factual allegations that
support such an inference. For example, he did not
allege that Google searches were only conducted on
African-American employees, that Wheeler searched
for additional information about Bing in contrast to
white employees or that Wheeler or anyone else said
or did anything suggesting the search was racially
motivated. Instead, Bing speculated that he “can find
nothing other than [his] (possibly unexpected) physical
appearance as an African-American male, to explain
[Brivo’s] actions. ...” J.A. 16. He also “question[s]

App.22a

whether or not Brivo can provide historical documenta­
tion to replicate [his] hiring experience, or at the very
least, demonstrate that they have a common hiring
practice of conducting ancillary ‘Google searches’ of
employees’ names on the first day of employment
with the company.” J.A. 16. With these allegations,
Bing effectively conceded he did not have facts to
support his conjecture. Being aware of no alternative
explanation and guessing that conduct is racially
motivated does not amount to pleading actual facts to
support a claim of racial discrimination. To the con­
trary, they constitute only speculation as to Wheeler’s
motivation.
Our Me Cleary-Evans decision is particularly
instructive here. In that case an African-American
female job applicant sued a state agency, alleging
she was not hired for two positions because of her
race and gender. McCleary-Evans, 780 F.3d at 583.
She alleged “[d]uring the course of her interview, and
based upon the history of hires within [that agency],
. . . both [supervisors] predetermined to select for both
positions a White male or female candidate.” Id. “But
she alleged no factual basis for what happened ‘during
the course of her interview’ to support the alleged
conclusion.” Id. at 586. While “she repeatedly alleged
that the Highway Administration did not select her
because of the relevant decisionmakers’ bias against
African American women,” we found that claim to only
amount to a “naked” allegation and “no more than
conclusionsU” Id. at 585 (quoting Iqbal’ 556 U.S. at
678-79 (quoting Twombly, 550 U.S. at 555, 557))
(internal quotation marks omitted). We held that
these allegations were too conclusory. Id. Specifically,
we noted that “[o]nly speculation can fill the gaps in

App.23a

her complaint—speculation as to why two ‘non-Black
candidates’ were selected to fill the positions instead
of her.” Id. at 586. The mere fact that a certain action
is potentially consistent with discrimination does not
alone support a reasonable inference that the action
was motivated by bias. Id. Thus, we concluded the
plaintiff failed to allege “facts sufficient to claim that
the reason it failed to hire her was because of her
race or sex.” Id. at 585.
Likewise, Bing failed to plead sufficient facts to
plausibly claim his termination or the Google search
that lead to it was racially motivated. Rather than
drawing a reasonable inference, we would have to
“speculate” to “fill in the gaps” as to Wheeler’s
motivation for the search and to disregard the reason
given to Bing for his termination. Thus, Bing’s
assertions do not contain “sufficient factual matter,
accepted as true, to ‘state a claim to relief that is
plausible on its face.’” Id. at 585 (quoting Iqbal, 556
U.S. at 678).
Last, as noted above, Bing filed his complaint
pro se. We are, therefore, compelled to construe his
pleadings liberally. See Erickson v. Pardus, 551 U.S.
89, 94 (2007) (quoting Estelle v. Gamble, 429 U.S. 97,
106 (1976)). We have done that. But liberal construction
does not mean overlooking the pleading requirements
under the Federal Rules of Civil Procedure. See Weidman v. Exxon Mobil Corp., 776 F.3d 214, 219 (4th
Cir. 2015) (affirming the dismissal of several of pro
se plaintiffs claims for failure to allege sufficient facts).
Bing’s complaint fails not because of unsophisticated
language or the failure to adhere to formalities. It fails
because he pled a non-discriminatory basis for his
termination and no facts to support his conclusory

App.24a
allegations about the Google search. What’s more, at
oral argument, his counsel said Bing had no other
facts he could assert in good faith to support his
claim. Accordingly, we are required to affirm the dis­
trict court.9
IV.
For these reasons, the judgment of the district
court is
AFFIRMED.

9 We also note, as did the district court, that under our precedent
“a strong inference exists that discrimination was not a
determining factor for the adverse employment action taken by
the employer” where the hiring and firing took place close in
time and involve the same decision makers. Proud v. Stone, 945
F. 2d 796, 797 (4th Cir, 1991) Here, as for timing, Bing alleged
the hiring and termination took place on the very same day.
And as to the decision-makers, Bing alleged that Brivo employees
Candace Scott and Baudel Reyes interviewed him and made the
hiring decision. J.A. 14. And while Bing attributed much of the
blame for his termination to Wheeler, who was not involved in
Bing’s hiring, he attached an email to his opposition to Brivo’s
motion to dismiss that alleges Scott and Wheeler “concluded I
was unfit for the position.” j.A. 99. Thus, Bing alleges Scott was
involved in both the hiring and termination decision thereby
impheating the Proud inference. While this inference provides
additional support for the district court’s decision, it requires
consideration of an email Bing attached to his opposition
papers, not his complaint. We dechne to consider whether Bing
waived any argument that the email should not be considered
by including the email in his opposition papers and whether the
Proud inference applies because the district court can be
affirmed on the other grounds recited above.

App.25a

DISSENTING OPINION OF
SENIOR JUDGE TRAXLER
TRAXLER, Senior Judge, dissenting in part:
Because I believe that Bing’s pro se complaint
plausibly alleged that he was discriminated against
because of his race, I respectfully dissent from Parts
III and IV of this opinion.
In order to “survive a motion to dismiss, ‘a
complaint must contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is
plausible on its face.’” Paradise Wire & Cable Defined
Ben. Pension Plan v. Weil, 918 F.3d 312, 317 (4th Cir.
2019) (quoting Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (quoting Bell Atlantic Corp. v. Twomhly, 550
U.S. 544, 570 (2007)).
Although Title VII cases often involve application
of the McDonnell Douglas prima-facie case standard,
see McDonnell Douglas Corp. v. Green, 411 U.S. 792,
802 (1973), “an employment discrimination plaintiff
need not plead a prima facie case of discrimination”
to survive a motion to dismiss, Swierkiewicz v. Sorema
N.A., 534 U.S. 506, 515 (2002). Instead, a Title VII
plaintiff is “required to allege facts to satisfy the
elements of a cause of action created by that statute.”
McCleary-Evans v. Maryland Dep’t of Transp., State
Highway Admin., 780 F.3d 582, 585 (4th Cir. 2015).
Accordingly, the question in this case is whether
Bing alleged facts sufficient to make it facially plausible
that Brivo fired or otherwise discriminated against
him in the conditions of employment because of his
race. See 42 U.S.C. § 2000e-2(a)(l). And because Bing
filed his complaint pro se, we are obliged to view his

App.26a

allegations liberally. See Erickson v. Pardus, 551 U.S.
89, 94 (2007) (per curiam) (“A document filed pro se
is to be liberally construed, and a pro se complaint,
however inartfullv pleaded, must be held to less
stringent standards than formal pleadings drafted
by lawyers.”) (citation and internal quotation marks
omitted).
Bing’s factual allegations show a confusing aboutface by Brivo. By all appearances, Brivo initially was
enthusiastic about Bing, as it extended him an offer
a day after the interview and encouraged bim to
start as soon as possible. Although the offer was
contingent on Bing passing a background investigation,
he passed that check and wras permitted to report for
work as expected and to begin the new-employee
orientation. But despite the satisfactory background
report, Wheeler decided upon meeting Bing that
additional investigation was required, and he fired
Bing without giving him a chance to explain the
information that he uncovered.

;■

$

V

k,

From these facts, Bing alleges that he was subject
to an additional layer of background investigation
because of his race. See 3 A. 16 (alleging that Wheeler’s
internet search '‘serve [d] as a means for discrimination
of protected groups, by allowing personal and perhaps
implicit biases to explicitly permeate the work envi­
ronment”). In my view, the facts alleged in Bing’s
complaint, along with the inferences that can reason­
ably be drawn from those facts, make Bing’s claim of
discrimination plausible. See Iqbal, 556 IJ.S, at 678
(“A claim has facial plausibility when the plaintiff
pleads factual content that allows the court to draw
the reasonable inference that the defendant is liable
for the misconduct alleged.”).

.

App.27a

First, because Brivo had already hired a thirdparty to perform a background check and had made
Bing’s job offer contingent on passing the background
check, it is reasonable to assume that Wheeler’s
additional investigation of an employee who had
already started work was not standard practice. After
all, if Brivo believed that the third-party report was
inadequate to screen potential employees, Brivo would
conduct its additional internet searches of applicants
before they reported for work, so that unqualified
applicants would never become employees. See J.A.
16 (questioning whether Brivo could “demonstrate
that they have a common hiring practice of conducting
ancillary ‘Google searches’ of employees’ names on
the first, day of employment with the company”). More­
over, it is reasonable to infer that Wheeler, as Brivo’s
“Security Architect,” would have had access to Bing’s
employment application and background report before
Bing reported for work. Thus, as Bing alleges, the
only new information Wheeler would have learned
upon meeting Bing was Bing’s race. See J.A. 16
(alleging that the only explanation for the additional
background search was Bing’s “(possibly unexpected)
physical appearance as an African-American male”).
Bing’s pro se complaint thus contains sufficient
factual information to support the allegation that
Bing was subject to the additional layer of background
investigation because of his race. Bing was qualified
for the job at Brivo and he successful^ passed the
required background check. From the facts alleged in
the complaint, the only thing that changed after Bing
was hired and began work was Wheeler’s knowledge
of his race. Those facts take us beyond mere speculation

App.28a

and make it plausible that Wheeler’s actions were
motivated by race.
Those facts also distinguish this case from
Me Cleary-Evans v. Maryland Department of Trans­
portation. In that case, an African-American female
job applicant sued a state agency, asserting that she
was not hired for two positions she applied for
because of her race and gender. 780 F.3d at 583. In
her complaint, the plaintiff alleged that during her
interview, “and based upon the history of hires within
[that agency], . . . both [supervisors] predetermined to
select for both positions a White male or female
candidate.” Id. We found the plaintiffs allegations
insufficient to support a discrimination claim because
“she alleged no factual basis for what happened during
the course of her interview to support the alleged
conclusion.” Id. at 586 (internal quotation marks
omitted). While “she repeatedly alleged that the
Highway Administration did not select her because
of the relevant decisionmakers’ bias against African
American women,” we found those claims to be “naked”
allegations and “no more than conclusions.” Id. at 585
(internal quotation marks omitted). As we explained,
“the allegation that non-Black decisionmakers hired
non-Black applicants instead of the plaintiff is
consistent with discrimination, [but] it does not alone
support a reasonable inference that the decisionmakers
were motivated by bias.” Id. at 586. Because “[o]nly
speculation can fill the gaps in [the plaintiffs]
complaint—speculation as to why two ‘non-Black
candidates’ were selected to fill the positions instead
of her,” we concluded that the complaint was properly
dismissed. Id. (“McCleary-Evans’ complaint stopped
short of the line between possibility and plausibility

App,29a

of entitlement to relief.”) (internal quotation marks
and alteration omitted).
Unlike in McCleary-Evans, no speculation is
required in this case. To survive the motion to dismiss,
Bing was only required “to allege facts to satisfy the
elements of a cause of action created by [Title VII].”
Id. at 585. Title VII makes it an unlawful employment
practice “to discharge any individual, or to otherwise
discriminate against any individual with respect to
his compensation, terms, conditions, or privileges of
employment, because of such individual’s race.” 42
U.S.C. § 20Q0e-2(a)(l). Bing’s allegations establish that
he was subjected to what can reasonably be understood
as an unusually timed, additional layer of background
investigation, and Wheeler used the information found
in that unusual search as the reason to fire Bing.
The only new information Wheeler learned before
conducting the unusual background check was Bing’s
race. Those facts are sufficient to support a reasonable
inference that Brivo subjected Bing to additional
investigation because of his race and fired him because
of his race.
When granting the motion to dismiss, the district
court effectively viewed the allegations of the complaint
in favor of Brivo rather than Bing when concluding
that Bing “was terminated because of his involvement
in the shooting incident.” J.A. 176. Contrary to the
district court’s conclusion, Bing did not plead himself
out of court by acknowledging the existence of the
newspaper article and his involvement in the shooting
incident described in the article. While Bing alleged
that Wheeler told him he was being fired because of
his involvement in the shooting, Bing did not allege
that was the true reason he was fired, and it was

App.30a

error for the district court to conflate the two. See
Goines v. Valley Cmty. Servs. Bd., 822 F.3d 159, 168
(4th Cir. 2016) (explaining that when considering a
motion to dismiss, the court “should have treated [the
plaintiffs] allegations [about statements made by
defendant police officers] as what they were—alle­
gations that the [ojfficers made the quoted statements,
not allegations that the statements themselves
were true”). The incident described in the article
is Brivo’s defense to Bing’s claims of discrimination;
the district court’s premature ruling prevented Bing
from attempting to prove that any reason asserted by
Brivo was pretext for discrimination.
Moreover, accepting Brivo’s claim that Bing was
fired because of his involvement in the incident ignores
the fact that Bing’s complaint, liberally construed,
alleges that he was subject to scrutiny and inves­
tigation that white employees were not. Thus, even if
Brivo could prove that the discovery of the article
was the true reason it terminated Bing, that does not
make Bing’s claim of discrimination in the conditions
of employment implausible.
Nothing about the existence or content of the
article renders implausible Bing’s theories of liability.
See Woods v. City of Greensboro, 855 F.3d 639, 649
(4th Cir. 2017) (“[W]hile BNT need not establish a
prima facie case at th[e motion-to-dismiss] stage,... we
must be satisfied that the City’s explanation for
rejecting the loan does not render BNT’s allegations
implausible.”). The district court therefore erred by
assuming the truth of Brivo’s defense when granting
the motion to dismiss.
While Bing’s complaint does not include exhaustive
factual allegations, we must remember the unusual

App.31a

circumstances of this case. Bing was fired on his first
day on the job, not because of anything he did that
day, but because of a news article that Bing was not
permitted to explain. Under these circumstances,
Bing is in no position to assert whether newly hired
white employees were subject to the same kind of
additional internet background check, or whether any
white employees had been fired for similar, decade-old
conduct. However, as discussed above, it is reasonable
to assume that employers wTill conduct all necessary
background checks before allowing new employees to
start work. But in this case, Wheeler conducted the
additional background search only after learning
that Bing was black, and Wheeler fired Bing without
permitting him to explain the article and his involve­
ment in the underlying incident. In my view, these
facts make Bing’s claim of racial discrimination
plausible. See Iqbal, 556 U.S. at 678 (“A claim has
facial plausibility when the plaintiff pleads factual
content that allows the court to draw the reasonable
inference that the defendant is liable for the misconduct
alleged.”); Twombly, 550 U.S. at 555 (explaining
that a complaint must contain “[fjactual allegations
[sufficient] to raise a right to relief above the spec­
ulative level”).
Because Bing’s complaint was sufficient to support
a claim of racial discrimination, I believe the district
court erred by granting Brivo’s motion to dismiss. I
therefore respectfully dissent from the affirmance of
the district court’s dismissing Bing’s complaint under
Rule 12(b)(6).

App.32a
MEMORANDUM OPINION
OF THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
(JANUARY 22, 2019)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
ROBEL BING,
Plaintiff,
v.
BRIVO SYSTEMS, LLC,
Defendant.
Civil Action No. PX-18-1543
Before: Paula XINIS, United States District Judge.
Pending in this employment discrimination case is
Defendant Brivo Systems, LLC’s (“Brivo”) Motion to
Dismiss. ECF No. 10. Plaintiff Robel Bing has respon­
ded, and no hearing is necessary. See D. Md. Loc. R.
105.6. For the reasons stated below, Defendant’s
Motion is GRANTED.

App.33a

I.

Background

In 2016, Bing applied to work at Brivo as a
Customer Care Representative. ECF No. l.l Bing sub­
mitted an employment application, which, among
other information, inquired about Bing’s prior criminal
convictions. Bing responded, “Misdemeanor 2003 Mis­
demeanor 2015.” ECF No. 10-4 at 1. Brivo employees
Candice Scott, who is an African-American woman,
and Baudel Reyes interviewed Bing in person, and thus
obtained “firsthand knowledge of [Plaintiffs] ethnicity.”
ECF No. 1-1 at 2 n.2.
Brivo offered Bing the position, which he accepted
under the terms of Brivo’s written job offer. ECF No.
10-3, 10-5. The employment offer conditioned Bing’s
employment on Brivo verifying that “[t]he information
provided to the Company to evaluate [Plaintiffs]
application was complete and true . . . [and Plaintiff]
agree[ing] to and successfully passting] a background
check. ...” Id. Bing accepted this offer and the parties
mutually determined that Bing would begin work at
Brivo on October 17, 2016. Bing also executed written
authorization allowing Brivo to conduct a background
check using Justifacts Credential Verification, Inc.
(“Justifacts”). On October 6, 2016, Justifacts had
completed its written report on Bing, after the offer
letter was sent but before Bing resigned from his
previous employment.

1 Although neither party describes the nature of Brivo’s business,
the Court takes judicial notice that per Brivo’s website, it provides
physical security systems and technical support services for
commercial businesses. See Brivo, Packages, www.brivo.com/
physical-security-packages (last visited January 22, 2019).

App.34a

On October 17, Bing reported to Brivo for his
first day. As part of his orientation, he met with Bing
employees, Charles Wheeler and Richard Crowder.
During this initial meeting, Wheeler confronted Bing
about information Wheeler had learned by googling
Bing. Specifically, Wheeler questioned Bing in a
hostile and aggressive manner about a Baltimore
Sun article that referenced Bing as having given his
roommate a loaded gun, which was then used in
“Halloween celebratory gunfire,” injuring another
person. ECF No. 1-1 at 2; ECF No. 10-8 at 1. No formal
charges were lodged against Bing. ECF No. 1-1 at 2.
After Bing admitted that he was the same Robel
Bing referenced in the article, Wheeler “terminated
[Bing] on the spot.” Id. Bing further avers that despite
his having notified Brivo that he quit his prior job to
take the Customer Care position, and complied in every
way with the pre-employment requirements, Bing
was given no forewarning that termination may be a
possibility and no opportunity to address the nature
of the allegations in the Sun article.
Understandably upset, Bing filed suit in this
Court, alleging race and sex discrimination and harass­
ment in violation of Title VII of the Civil Rights Act
of 1964, 42 U.S.C. § 2000e, et seq. (“Title VH”), as
well as violations of the Fair Credit Reporting Act, 15
U.S.C. § 1681 et seq. (“FCRA”). Brivo now moves to
dismiss all Counts. For the following reasons, the
motion must be granted.
II.

Standard of Review

A motion to dismiss brought pursuant to Rule
12(b)(6) tests the sufficiency of the complaint. Presley
v. City of Charlottesville, 464 F.3d 480, 483 (4th Cir.

App.35a

2006) (citation and internal quotation marks omitted).
A complaint need only satisfy the standard of Rule
8(a), which requires a “short and plain statement of
the claim showing that the pleader is entitled to relief.”
Fed. R. Civ. P. 8(a)(2). “Rule 8(a)(2) still requires a
‘showing,’ rather than a blanket assertion, of entitle­
ment to relief.” Bell Atl. Corp. v. Twombly, 550 U.S.
544, 555 n.3 (2007). That showing must consist of
more than “a formulaic recitation of the elements of a
cause of action” or “naked assertion[s] devoid of
further factual enhancement.” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009) (internal quotation marks omitted)
(quoting Twombly, 550 U.S. at 555).
In ruling on a motion to dismiss, a plaintiffs
well-pleaded allegations are accepted as true and
viewed in the light most favorable to him. Twombly,
550 U.S. at 555. The Court may also consider docu­
ments attached to the motion to dismiss when “integral
to and explicitly relied on in the complaint, and when
the [opposing parties] do not challenge the documents’]
authenticity.” Zak v. Chelsea Therapeutics, Int% Ltd.,
780 F.3d 597, 606-07 (4th Cir. 2015) (quoting Am.
Chiropractic Ass’n v. Trigon Healthcare, Inc., 367 F.3d
212, 234 (4th Cir. 2004)) (internal quotation marks
omitted). However, “[f]actual allegations must be
enough to raise a right to relief above a speculative
level.” Twombly, 550 U.S. at 555. “[C]onclusory state­
ments or a ‘formulaic recitation of the elements of a
cause of action will not [suffice].”’ EEOC v. Perfor­
mance Food Grp., Inc., 16 F. Supp. 3d 584, 588 (D. Md.
2014) (quoting Twombly, 550 U.S. at 555). ‘“[N]aked
assertions of wrongdoing necessitate some ‘factual
enhancement’ within the complaint to cross ‘the line
between possibility and plausibility of entitlement to

App.36a

relief.”’ Francis v. Giacomelli, 588 F.3d 186, 193 (4th
Cir. 2009) (quoting Twombly, 550 U.S. at 557).
Although pro se pleadings are construed liberally to
allow for the development of a potentially meritorious
case, Hughes v. Rowe, 449 U.S. 5, 9 (1980), courts
cannot ignore a clear failure to allege facts setting
forth a cognizable claim. See Weller v. Dep’t of Soc.
Servs., 901 F.2d 387, 391 (4th Cir. 1990) (“The ‘special
judicial solicitude’ with which a district court should
view such pro se complaints does not transform the
court into an advocate.”).
III. Discussion
A. Title VII
i. Discriminatory Discharge
Bing avers that he was discharged on his first
day of work because of his race and gender. Because
the Complaint allegations do not aver any direct
evidence of discrimination, Bing’s discrimination
claims are subject to the burden-shifting framework
announced in McDonnell Douglas Corp. v. Green,
41.1 U.S. 792 (1973); Hawkins v. PepsiCo, Inc., 203
F.3d 274, 278 (4th Cir. 2000); Riddick v. MAIC, Inc.,
445 F. App’x 686, 689 (4th Cir. 2011). To sustain a
prima facie case of discrimination, a plaintiff must
demonstrate: (l) membership in a protected group,
(2) discharge, (3) while otherwise fulfilling Defendants’
legitimate expectations at the time of his discharge,
and (4) under circumstances that raise a reasonable
inference of unlawful discrimination. See King v.
Rumsfeld, 328 F.3d 145, 149 (4th Cir. 2003). If Bing
establishes a prima facie case, the burden shifts to
Brivo to offer a legitimate, non-discriminatory reason

App.37a

for his discharge. See Guessous v. Fairview Prop.
Invs., LLC, 828 F.3d 208, 216 (4th Cir. 2016). Once
Brivo provides such a reason, the burden then shifts
back to Bing to raise a genuine dispute as to whether
the proffered reason is mere pretext for discrimination.
See id.
Importantly, however, plaintiff is not required to
“plead facts sufficient to establish a prima facie case
. . . to survive a motion to dismiss.” Woods v. City of
Greensboro, 855 F.3d 639, 648 (4th Cir. 2017). Rather,
the complaint must simply include “sufficient factual
allegations to support a plausible claim” of discrimi­
nation. Id:, see also Chowdhuri v. SGT, Inc., No. PX
16-3135, 2017 WL 3503680, at *5 (D. Md. Aug. 16,
2017). Unfortunately for Bing, the Complaint does not
meet this threshold.
It is undisputed that Bing is a member of a
protected class who was discharged on his first day of
wrork after having been found qualified for the position.
However, Bing has proffered no facts allowing a
plausible inference that his discharge was fueled by
unlawful discrimination. According to the Complaint,
the Brivo employees responsible for hiring him—
Candice Scott and Baudel Reyes—knew of Bing’s
race and gender because they had conducted an inperson interview before hiring Bing. ECF No. 1-1.
When Bing showed up for work, however, Brivo
employees confirmed with Bing an incident involving
his loaning a firearm that subsequently was used in
a shooting. This new information led to his termination
“on the spot.” Id. In this respect, the Complaint avers
facts establishing that he was terminated because of
his involvement in the shooting incident—the veracity
of which Bing confirmed. By contrast, no evidence

App.38a

exists by which this Court could infer Bing was
terminated on account of race or gender. Brivo con­
cluded that Bing’s involvement in the firearm incident
rendered him unfit for the position. Nothing about
this determination, based on the facts averred in the
Complaint, demonstrates that this reason was put
forward to obscure Brivo’s discriminatory animus.
In fact, where an employee’s hiring and firing occur
close in time and involve the same decision-makers,
“a strong inference exists that discrimination was
not a determining factor for the adverse action taken
by the employer.” Proud v. Stone, 945 F.2d 796, 797
(4th Cir. 1991); see also Liu v. Bushnell, No. TDC-171398, 2018 WL 3093974, at *10 (D. Md. June 22, 2018).
Bing specifically avers that he was subject to unlaw­
ful discrimination by “one or more employees in
management, whose role within the company organ­
ization grants a singular decision-making authority
with which to initiate and carry out hiring and firing
processes within the company.” ECF No. 1-1. Bing
also confirms that Scott was involved in both his
hiring and firing. ECF No. 13-4 at 20 (alleging that
both Scott and the Security Director “concluded that
I am not fit for the position.”). Accordingly, no facts
permit this Court to infer plausibly that Brivo’s
ultimate decision to terminate Bing constituted unlaw­
ful discrimination. This claim must be dismissed.
ii. Hostile Work Environment
Bing also alleges that he was “subjected to hostile
interrogations, without any basis or prior warning,”
and “berate[d]” for failing to disclose the shooting
incident. ECF No. 1-1 at 1, 2. This questioning, while

App.39a

unpleasant and unfortunate, does not amount to an
actionable Title VII claim.
Most favorably construed, Bing seeks relief for
having been subjected to a hostile work environment.
To state a hostile work environment claim, Bing must
aver facts from which this Court could infer plausibly
that: (l) he experienced unwelcome harassment; (2)
based on his race or gender; (3) the harassment was
sufficiently severe or pervasive to alter the conditions
of employment and create an abusive atmosphere;
and (4) liability may be imposed on the employer.
Ruffin v. Lockheed Martin Corp., 126 F. Supp. 3d 521,
528 (D. Md. 2015), affd as modified, 659 F. App’x 744
(4th Cir. 2016) (approving the district court’s use of
the above-cited elements in granting the defendant
judgment on the pleadings); see also Bonds v. Leavitt,
629 F.3d 369, 386 (4th Cir. 2011). The severity and
pervasiveness of the alleged harassment depends on
“the frequency of the discriminatory conduct; . . .
whether it is physically threatening or humiliating
or a mere offensive utterance; and whether it unrea­
sonably interferes with the employee’s work per­
formance.” Faragher v. City of Boca Raton, 524 U.S.
775, 787-88 (1998) (quoting Harris v. Forklift Sys., Inc.,
510 U.S. 17, 23 (1993)) (internal quotation marks
omitted). “A hostile environment exists ‘[w]hen the
workplace is permeated with discriminatory intimida­
tion, ridicule, and insult that is sufficiently severe or
pervasive to alter the conditions of the victim’s employ­
ment and create an abusive working environment.’”
Boyer-Liherto v. Fontainebleau Corp., 786 F.3d 264,
276-77 (4th Cir. 2015) (quoting Harris, 510 U.S. at 21)
(alteration in original). By contrast, harsh or callous
exchanges alone are insufficient to support the claim.

App.40a

Chang Lim v. Azar, 310 F. Supp. 3d 588,
2018) (quoting Bass v. E.I. DuPont de
Co., 324 F.3d 761, 765 (4th Cir. 2003);
PepsiCo, Inc., 203 F.3d 274, 276 (4th Cir.

599 (D. Md.
Nemours &
Hawkins v.
2000)).

Bing alleges a hostile environment based on a
single incident that he characterizes as an interroga­
tion, and during which he was “berate[d]” about the
shooting information discovered during Wheeler’s
Google search. Although Wheeler’s deportment was
unwelcome, there is no evidence Wheeler was moti­
vated by discriminatory animus. Nothing about
Wheeler’s exchange with Bing, directly or indirectly,
alludes to Bing’s race or gender. Rather, the Complaint
details a heated exchange between Wheeler and Bing
after Wheeler learned about Bing’s having loaned a
firearm used in a shooting. Accordingly, viewing the
Complaint most favorably to Bing, the hostile work
environment claim must be dismissed.
B. Fair Credit Reporting Act
Bing also alleges that Brivo violated the FCRA
by relying on a Google search as a basis for his
termination and without warning Bing in advance or
providing him the opportunity to refute the allegations.
ECF No. 1-1. Notably, Bing does not challenge the
formal background check that Brivo had performed
prior to Bing’s first day.2 Rather, Bing only references
2 Although the Complaint references the background report that
Brivo retained from Justifacts, Bing emphasizes in his Complaint
that the Justifacts report was obtained prior to his first, day of
work, and that he disclosed information consistent with the
Justifacts background report prior to being hired for the job.
ECF No. 1-1. Accordingly, the Court cannot plausibly infer that
Bing’s FCRA claim is based on any alleged FCRA violation based
on the Justifacts report.

App.41a

Wheeler’s Google search, which generated the Balti­
more Sun article, as the basis for Brivo’s FCRA
liability. Accordingly, Bing’s claim must fail.
Section 1681b(b)(3)(A) of the FCRA renders an
employer liable under the statute if the employer
failed to provide the prospective employee a copy of
any consumer report on which the employer’s adverse
action is based. The FCRA also mandates that the
employer describe in writing the “rights of the consumer
under this subchapter, as prescribed by the Bureau
under section 1681g(c)(3) of this title.” Id.
Critical to the Court’s analysis, however, is the
FCRA’s definition of “consumer report.” A consumer
report is:
[A]ny written, oral, or other communication
of any information by a consumer reporting
agency bearing on a consumer’s credit
worthiness, credit standing, credit capacity,
character, general reputation, personal char­
acteristics, or mode of living which is used
or expected to be used or collected in whole
or in part for the purpose of serving as a
factor in establishing the consumer’s eligi­
bility for . . . employment purposes. ...
15 U.S.C. § 1681a(d)(l) (emphasis added).
A “consumer reporting agency” is further defined
as persons which, “for monetary fees, dues, or on a
cooperative nonprofit basis” regularly assemble or
evaluate consumer credit information or other consumer
information “for the purpose of furnishing consumer
reports to third parties.” 15 U.S.C. § 1681a(f). Nowhere
does Bing allege that Brivo is a consumer reporting
agency as defined under the statute. Thus, the Google

App.42a

search that Wheeler, as a Brivo employee, performed
on Bing’s first day of work cannot as a matter of law
constitute a “consumer report” under the FCRA, if
for no other reason than it was not generated by
a “consumer agency.” See Jolly v. Acad. Collection
Serv., Inc., 400 F. Supp. 2d 851, 858 (M.D.N.C. 2005)
(dismissing FCRA claim where defendant Citibank
did not qualify as “consumer reporting agency.”); see
also Menefee v. City of Country Club Hills, No. 08 C
2948, 2008 WL 4696146, at *3 (D. Ill. Feb. 12, 2016)
(finding that employer is not a “consumer reporting
agency” where it collects information on potential
employees without furnishing reports to third parties).
When viewing the Complaint allegations as true and
most favorably to Bing, the FCRA claim does not
survive challenge.
IV. Conclusion
Bing is understandably unhappy at Brivo’s decision
to renege its employment offer after learning of the
incident reported in the Baltimore Sun article, and
after Bing had quit his other job to work for Brivo.
The Court certainly sympathizes with Bing’s predi­
cament, and accepts as true the facts as described. But
these facts simply do not, in the Court’s view, support
a charge of discrimination or harassment under Title
VII or an FCRA violation. For this reason, the Court
DISMISSES Bing’s Complaint without prejudice.
/s/ Paula Xinis
United States District Judge
1/22/2019
Date

App.43a

COMPLAINT FOR EMPLOYMENT
DISCRIMINATION
(MAY 29, 2018)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND

ROBEL BING,
13203 Astoria Hill Court, Apt. D
Germantown, Montgomery County,
Maryland, 20874, 202-714-4588
-against
BRIVO SYSTEMS, LLC,
7770 Old Georgetown Road, Bethesda, Montgomery
County, Maryland, 20814, 1(866) 692-7486
Case No. 8:18-cv-01543-PX

I.

The Parties to This Complaint
A. The Plaintiffs)

Provide the information below for each plaintiff
named in the complaint. Attach additional pages if
needed.
Name Robel Bing
Street Address 13203 Astoria Hill Court. Apt. D
City and County
Germantown; Montgomery County
State and Zip Code Maryland, 20874
Telephone Number 202-714-4588

App.44a

E-mail Address bing.robel@gmail.com
B. The Defendant(s)
Provide the information below for each defendant
named in the complaint, whether the defendant is an
individual, a government agency, an organization, or
a corporation. For an individual defendant, include
the person’s job or title (if known). Attach additional
pages if needed.
Defendant No. I
Name Brivo Systems. LLC
Job or Title (if known)
Customer Care Representative (CCR)
Street Address 7770 Old Georgetown Road
City and County Bethesda; Montgomery County
State and Zip Code Maryland. 20814
Telephone Number 1(866) 692-7486
C. Place of Employment
The address at which I sought employment or
was employed by the defendant(s) is:
Name Brivo Systems, LLC
Street Address 7770 Old Georgetown Road
City and County Bethesda: Montgomery County
State and Zip Code Maryland. 20814
Telephone Number 1(866) 692-7486
II.

Basis for Jurisdiction

This action is brought for discrimination in
employment pursuant to:

App.45a

•

Title VII of the Civil Rights Act of 1964, as
codified, 42 U.S.C. §§ 2000e to 2000e-17 (race,
color, gender, religion, national origin).

(Note: In order to bring suit in federal district
court under Title VII. you must first obtain a
Notice of Right to Sue letter from the Equal
Employment Opportunity Commission.)
•

Other federal law:

SUBCHAPTER F-THE
REPORTING ACT

FAIR

CREDIT

III. Statement of Claim
Write a short and plain statement of the claim.
Do not make legal arguments. State as briefly as
possible the facts showing that each plaintiff is
entitled to the damages or other relief sought. State
how each defendant was involved and what each
defendant did that caused the plaintiff harm or
violated the plaintiffs rights, including the dates and
places of that involvement or conduct. If more than
one claim is asserted, number each claim and write a
short and plain statement of each claim in a separate
paragraph. Attach additional pages if needed.
A. The discriminatory conduct of which I complain
in this action includes:
•

Termination of my employment.

•

Other acts: Harassment / Discrimination

(Note: Only those grounds raised in the
charge filed with the Equal Employment
Opportunity Commission can be considered
by the federal district court under The federal
employment discrimination statutes.)

App.46a

B. It is my best recollection that the alleged dis­
criminatory acts occurred on date(s) October 17, 2016
C. I believe that defendant(s):
•

is/are not still committing these acts against
me.

D. Defendant(s) discriminated against me based
on my:
•

race African-American

•

color Brown

•

gender/sex Male

E. The facts of my case are as follows. Attach
additional pages if needed.
Please see the attached response.
(Note: As additional support for the facts of
your claim, you may attach to this complaint
a copy of your charge filed with the Equal
Employment Opportunity Commission, or
the charge filed with the relevant state or
city human rights division.)
IV. Exhaustion of Federal Administrative Remedies
A- It is my best recollection that I filed a charge
with the Equal Employment Opportunity Commission
or my Equal Employment Opportunity counselor
regarding the defendant’s alleged discriminatory con­
duct on May 10. 2017
B. The Equal Employment Opportunity Commis­
sion:
•

issued a Notice of Right to Sue letter, which I
received on February 27, 2018

App.47a

(Note: Attach a copy of the Notice of Right
to Sue letter from the Equal Employment
Opportunity Commission to this complaint.)
V.

Relief

State briefly and precisely what damages or
other relief the plaintiff asks the court to order. Do
not make legal arguments. Include any basis for
claiming that the wrongs alleged are continuing at
the present time. Include the amounts of any actual
damages claimed for the acts alleged and the basis
for these amounts. Include any punitive or exemplary
damages claimed, the amounts, and the reasons you
claim you are entitled to actual or punitive money
damages.
The amount of $4.000.000 reflects the sum total for
damages owed, lost wages, health benefits, retirement
benefits, employee stock options that were available to
me as an employee, per agreement. I was a paid
employee, wrongfully terminated due to malicious and
racially-motivated actions initiated against me on my
first day of employment, by a single individual in a
position of authority (Mr. Wheeler) at Brivo Systems,
LLC. I am requesting damages for the mental and emo­
tional, and physical stress that Brivo’s discriminatory
actions have incurred. Lastly, Brivo Systems LLC
will match the $4,000,000 amount to be paid to Science,
Engineering. Mathematics and Aerospace Academy
(SEMAA) program at mv alma mater. Morgan State
University. I was denied wages and other employ­
ment benefits, the total of which would exponentially
increase over time as an employee. As I was denied
the opportunity to further my employment with the
company, the total monetary gains cannot be

App.48a

accurately assessed (particularly with regard to the
employee stock options amount and growth over time.
VI. Certification and Closing
Under Federal Rule of Civil Procedure 11, by
signing below, I certify to the best of my knowledge,
information, and belief that this complaint: (I) is not
being presented for an improper purpose, such as to
harass, cause unnecessary delay, or needlessly increase
the cost of litigation; (2) is supported by existing law
or by a nonfrivolous argument for extending, modifying,
or reversing existing law; (3) the factual contentions
have evidentiary support or, if specifically so identified,
will likely have evidentiary support after a reasonable
opportunity for further investigation or discovery;
and (4) the complaint otherwise complies with the
requirements of Rule II.
A. For Parties Without an Attorney
I agree to provide the Clerk’s Office with any
changes to my address where case-related papers
may be^ served. I understand that my failure to keep
a current address on file with the Clerk’s Office may
result in the dismissal of my case.

Signature of Plaintiff /s/ Robel Bing
Printed Name of Plaintiff
Robel Bing
Date of Signing: May 25, 2018

App.49a

NOTICE OF RIGHT TO SUE LETTER FROM THE
EQUAL EMPLOYMENT OPPORTUNITY
COMMISSION
E.

The Facts of my case are as follows:

Re: EEOC Charge No. 531-2017-01515C
Bing v. Brivo Systems, LLC
EEOC charge was filed on May 10,2017. Brivo
Systems, LLC allowed unchecked implicit racial biases
to govern the actions of one or more employees in
management, whose role within the company organ­
ization grants a singular decision-making authority
with which to initiate and carry out hiring and firing
processes within the company. The unlawful termina­
tion of my employment on October 17,2016 resulted
in a direct violation of my civil rights, as protected by
Title VII of The Civil Rights Act of 1964.
a.

I am a member of a protected group, AfricanAmerican, as defined by Title VII

b.

I was qualified, and was hired for the role of
Customer Care Representative (CCR), at
Brivo Systems, LLC.

c.

I was fired from the position, on my first
day of employment with Brivo Systems, LLC,
as Brivo Systems, LLC unlawfully applied
discriminatory evaluation criteria to effect­
ively terminate my employment; and, was
subjected to hostile interrogations, without
any basis or prior warning; and,

d.

Brivo Systems, LLC continued their search
for another similar candidate

App.50a

Background
On October 17,2016,1 was hired by Brivo Systems,
LLC (“Brivo”) after submitting an application and
receiving written confirmation of my background check
completion. The vetting process included: a screening
of my application, disclosures, criminal background
check, reference checks, driving records data, and
other direct or third-party standard measures employed
by Brivo. The JustiFacts report was the third-party
vendor used by Brivo for this process. Brivo had access
to all personal information and signed disclosures
needed, in order to conduct a full background screening.
The application prompted me to make disclosures of
any misdemeanor or felony convictions, to which I fully
and honestly divulged all requested information.! In
the application, I declined to self-identify as to my
ethnicity. After Brivo’s preliminary screening and inperson interview2, I was deemed qualified for the CCR
position with Brivo that I applied for and was contacted
by Ms. Scott to begin work on October 17, 2016.3

1 A copy of my corrected JustiFacts report was submitted 10
EEOC at Intake, May 10,2017.
2 Ms. Scott and Mr. Reyes were the only Brivo employees who
had firsthand knowledge of my ethnicity, from the time that I
was interviewee, until my arrival at Brivo for employee orientation
on October 17, 2016 as I did not indicate my ethnicity on the
application itself.
3 Documents submitted during the Intake process with EEOC,
establish that Ms. Scott’s knowledge of the background check
process, and favorable completion status. Specifically, Ms. Scott
admits that the process took longer than expected; however, the
process had been completed, and she was eager for me to begin
my employment with Brivo. As detailed in the email exchanges.
Ms. Scott wanted me to begin employment as soon as possible,

App.51a

Upon appearing for orientation on October 17,
2016, a date that Brivo acknowledges as the first day
of my employment, I was met by two Brivo employees
who had not participated in my application process,
Mr. Charles Wheeler and Mr. Richard Crowder. Mr.
Wheeler was introduced as Security Architect for
Brivo, and Mr. Crowder as the Director of Technical
Services. Both Brivo employees were Caucasian males.
Within an hour of orientation, I was pulled aside by
Mr. Wheeler and confronted about a Baltimore Sun
newspaper article, pursuant to a “Google search”, which
sensationally reported that I was the subject of a
criminal investigation involving a shooting between
two individuals, involving a gun that I lawfully
owned at the time, all events having taken place in
my absence. Mr. Wheeler continued to berate me for
this alleged impropriety, citing only the newspaper
article’s narrative; and, thereafter declared that I was
unfit for the position of CCR, effectively terminating
my employment with Brivo on the spot. I was never
given an opportunity to refute these accusations, as I
was immediately being escorted out of the building
by Mr. Wheeler. I never withheld or concealed any
criminal or felony conviction at any time during my
application process or initial employment with Brivo.
Additionally, the incident, as detailed in the Balti­
more Sun news article, did not result in any arrest or
and had knowledge of my desire to give my current employer
the customary two weeks’ notice prior to my effective resignation.
When Ms. Scott noted that she would have to ask permission to
extend my hire date to accommodate my desired notice of
resignation, I spoke’ with my current employer and made them
aware of my new job opportunity. Wishing me the best, they
were land enough to accept an early resignation so that I could
begin employment with Brivo, on October 17, 2016.

App.52a

criminal conviction, as the Baltimore Police found me
to be innocent of any crime, and reflected as such in
the Police Report drafted on the night of the incident.
The Baltimore Sun news article was never updated
by the publisher to reflect the Baltimore Police
Department’s conclusion of the reported events.
I even attempted to resolve this through peaceful
email dialogue with Brivo’s CEO, Steve Van Till,
immediately after my termination of employment.
He was very receptive at first, then became completely
unresponsive after his assertion that the matter had
been closed. He was completely comfortable with the
violation of my rights, as an employee.
Pursuant to guidance found on EEOC’s webpage,4
background information must be responsibly obtained,
and the Federal Trade Commission (FTC) enforces
the Fair Credit Reporting Act (FCRA) as follows:
“FTC
When taking an adverse action (for example,
not hiring an applicant or firing an employee]
based on background information obtained
through a company in the business of
compiling background information, the FCRA
has additional requirements:
•

Before you take an adverse employment action,
you must give the applicant or employee:
o a notice that includes a copy of the con­
sumer report you relied on to make
your decision; and

4 EEOC website: https://www.eeoc.gov/eeoc/publications/back
ground_checks_employers.htm

App.53a

o

a copy of “A Summary of Your Rights
Under the Fair Credit Reporting Act,”
which you should have received from
the company that sold you the report.

By giving the person the notice in advance,
the person has on opportunity to review the
report and explain any negative information.
o After you take an adverse employment
action, you must tell the applicant or
employee (orally, in writing, or elec­
tronically):
o that he or she was rejected because of
information in the report;
o the name, address, and phone number
of the company that sold the report;
o that the company setting the report didn’t
make the hiring decision, and can’t give
specific reasons for it; and
o that he or she has a right to dispute the
accuracy or completeness of the report,
and to get an additional free report
from the reporting company within 60
days.”

f

Additional guidance regarding the background
screening process for job applicants, as well as for
active employees, generally acknowledges the em­
ployer’s right to an in-house background screening.
This is commonly accepted as an overview of the
employee or applicant’s social media profile(s), in order
to screen for any potential workplace conflicts that
may arise, given the applicant or employee’s online
presence, possible community influence, and any infor-

App.54a

mation that they have chosen to make pubic about
themselves in a social context. For example, a pro­
spective employer may not wish to hire a candidate
who chooses to tweet hate speech, or an employee
who may have had inappropriate social media inter­
actions with coworkers at a previous job. Brivo’s ac­
tions and additional screening measures (Google
search of my name on October 17, 2016) violated my
rights, as protected by Title VII of the Civil Rights
Act of 1964, as well as established standards of
employment law, because of the company’s choice to
use such screening measures to serve as means for
discrimination of protected groups, by allowing per­
sonal and perhaps implicit biases to explicitly per­
meate the work environment.
In choosing to conduct an ancillary Google search
of me, Brivo went beyond all standard and routine
measures of screening, which intentionally resulted
in the disenfranchisement of my rights as an employee.
These measures were not conducted in the month
between the date that I submitted my application and
the date in which I was hired for the CCR position, but
only after I showed up for my first day of work and
appeared before Mr. Wheeler; and, to a lesser extent,
Mr. Crowder, who took the lead in investigating, con­
fronting, and discharging me. Moreover, I disclosed
everything that I was requested to disclose during
the application process, and did so fully and honestly.
Brivo, by their own admission, considered my job
qualifications befitting for the position and results of
my character and fitness investigation satisfactory
for employment. Brivo, in their Responsive documents,
neglect to offer any reason as to why the additional
investigation of me was performed on the first day of

App.55a

my employment, after Brivo had provided me with
written confirmation of a favorable conclusion to
their established background check procedures. Also
of concern, is the blatant disregard for established
vetting procedures dictated by federal employment
laws, as Brivo has chosen to latch onto the Baltimore
Sun news article without demonstrating any effort
on their part to verify the factual events through a
third-party vendor or search public police records,
especially when the content of such news article seems
to imply criminal activity. What facts remain, hardly
appear to provide Brivo with a reasonable, nondiscriminatory pretext for their actions. Specifically,
employees Wheeler and Crowder had no prior
knowledge of my race, as race was not specified on
my application; and, only employees Scott and Reyes
had firsthand knowledge of my race, as they were the
hiring managers responsible for conducting the inter­
view, and eventually hiring me with the company. I
can find nothing other than my (possibly unexpected)
physical appearance as an African-American male, to
explain actions of race (African-American) and sex
(male) discrimination, initiated by Mr. Wheeler, whose
actions clearly fell outside of established Brivo hiring
processes as well as FTC and FCRA best practices
outlined and explained above. I question whether or
not Brivo can provide historical documentation to
replicate my hiring experience, or at the very least,
demonstrate that they have a common hiring practice
of conducting ancillary “Google searches” of employees’
names on the first day of employment with the
company. Furthermore, if Brivo would willingly admit
to this discriminatory practice, would the company
also acknowledge that this practice is commonly
applied to individuals who declined to indicate race

App.56a

on employment forms, and subsequently proved to
(obviously) be a member of a protected minority
class, as reflected in my experience? The only other
factual information garnered from the news article,
was the fact that at one point in the past, I lawfully
owned a firearm. Does this fact represent justifiable
grounds for termination for all employees, or simply
a reason for terminating employment of AfricanAmerican males? Given these circumstances, I pro­
pose that Brivo provide documentation as it relates
to past applicants, to be evaluated for its relevance
as it applies to Title VII, and previous Supreme
Court rulings.5
Analysis and Conclusion
I did not self-identify as an African-American
male on the application form; and, while I applaud
their subsequent efforts in maintaining diversity in
the workplace, Brivo’s efforts do not excuse their dis­
criminatory actions towards me. As demonstrated in
Connecticut v. Teal:6
. .the Supreme Court holds
that an employer who is liable for racial discrimination
when any part of its selection process has a disparate
impact even if the final result of the hiring process is
racially balanced. In effect, the Court rejects the
5 In International Brotherhood of Teamsters v. United States, the
Supreme Court rules that in a pattern or practice discrimination
case, once the plaintiff proves that the defendant systematically
discriminated, all the affected class members are presumed to be
entitled to relief (such as back pay, jobs) unless the defendant
proves that the individuals were not the victims of the defendant’s
pattern or practice of discrimination.
6 EEOC website, Supreme Court rulings of note: https://www.
eeoc.gov/eeoc/history/35th/thelaw/supremecourt.html

App.57a

“bottom line defense”, and makes clear that the fair
employment laws protect the individual. The Teal
decision means that fair treatment of a group is not a
defense to an individual claim of discrimination.”
My disclosures of criminal history, as they relate to
the application process, were complete and transparent
in nature. Furthermore, the specific nature of these
misdemeanor charges is detailed online, via case
search feature of the Maryland Courts website which
is available to the public at no cost. Brivo’s aggressive
interrogation and inflated accusations as to the
nature of my criminal record, were an assault on my
person, derogatory in action, and resulted in an overall
horrifically demeaning experience7 Not only was I
subjected to racially-biased hostility, I was left without
health insurance or gainful employment (I had just
resigned from my previous job to accommodate Brivo’s
desired start date), and my previous position had
7 The JustiFacts report obtained by Brivo, contained erroneous
criminal records information which was subsequently corrected
and provided to EEOC at Intake on May 10,2017. I was denied
the opportunity to address these inaccuracies, as per FTC and
FCRA laws, prior to any adverse employment action. In fact, I
was only provided with the JustiFacts report approximately 3
weeks after Brivo terminated my employment When Ms. Scott
emailed the report to me, she omitted the JustiFacts disclaimer
which states that the report is not to be used as the sole
determining factor in evaluating an employees’ suitability for any
position, as well as the Statement of Rights portion routinely
provided by JustiFacts with each generated report. It was not
until I received the Statement of Rights portion along with the
corrected report in 2017. generated at my request through
direct communications with the JustiFacts company, that I was
aware of my rights and also realized that Brivo had gone to great
lengths to deny me the opportunity to address the inaccurate
report, prior to my termination.

App.58a

already been filled. I have a chronic, life-long health
condition that has required intermittent hospitaliza­
tions and regular medical care since birth. Having
adequate health insurance not only effects the quality
of health care that is available to me, but it also
affects my ability to pay for such care. For myself,
and for thousands of others who share my diagnosis,
life depends on it. The stress of these events, and the
subsequent search for new employment has been
physically disabling at times, as well as mentally and
emotionally scarring. I humbly request that these
biases be evaluated, addressed, and some measure of
action taken to ensure that Brivo educate itself as an
organization and initiate a change within company
culture for the betterment of all those aspiring to
enter the workforce.
Respectfully,

/s/ Robel Bing

App.59a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE FOURTH CIRCUIT DENYING
PETITION FOR REHEARING
(JUNE 30, 2020)
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
ROBEL BING,
Plaintiff-Appellant,
v.
BRIVO SYSTEMS, LLC,
Defendant-Appellee.
No. 19-1220
(8:18-cv-01543-PX)
Before: AGEE and QUATTLEBAUM, Circuit Judges,
and TRAXLER, Senior Circuit Judge.
The court denies the petition for rehearing and
rehearing en banc. No judge requested a poll under
Fed. R. App. P. 35 on the petition for rehearing en banc.

App.60a
Entered at the direction of the panel: Judge
Agee, Judge Quattlebaum, and Senior Judge Traxler.
For the Court
/s/ Patricia S. Connor
Clerk

